                                                             Memorandum
            U.S. Department of
            Transportation
            Office of the Secretary
            of Transportation
            Office of Inspector General

Subject:    INFORMATION: Amtrak RRIF Loan                             Date:   December 9, 2003
            Condition 8

  From:     Kenneth M. Mead                                        Reply to   J-1
                                                                   Attn of:
            Inspector General
    To:     The Secretary
            Deputy Secretary Designate
            Chief of Staff
            Under Secretary for Policy
            General Counsel Designate
            Assistant Secretary for Transportation Policy
            Assistant Secretary for Budget & Programs Designate
            Federal Railroad Administrator


           On June 28, 2002, the Department of Transportation (DOT) approved a direct loan
           to the National Railroad Passenger Corporation (Amtrak) under the Railroad
           Rehabilitation and Improvement Financing (RRIF) Program in the amount of
           $100 million. Attachment A to the loan agreement requires Amtrak to satisfy
           12 conditions. Condition 8 requires Amtrak to identify the extent to which
           commuter operations would be affected in the event of an Amtrak shutdown.
           Prior to the RRIF loan and an emergency Federal appropriation of $205 million,
           Amtrak had threatened to shut down all services, including commuter services.
           Condition 8 specifically requires that:

                   By August 1, 2002, Amtrak management will provide to the Board
                   of Directors and DOT a detailed report on all operating relationships
                   between Amtrak and commuter rail systems, including a concise
                   inventory of such relationships on a state-by-state basis. The report
                   should explain the manner and extent to which any suspension of
                   Amtrak operations would affect commuter rail operations. The DOT
                   Inspector General will review and have an opportunity to comment
                   on the draft report, review the final report, and provide an
                   assessment to DOT and the Congress.



           Control No. 2003-049
                                                                                2

We have reviewed all of the information Amtrak provided and find that Amtrak
has failed to comply with the requirements of loan condition 8. This
memorandum provides our comments on Amtrak’s lack of compliance with this
condition.

Amtrak’s initial (draft) response included a matrix outlining the functions it
provided to 13 commuter rail systems, as well as brief summaries of the terms
included in its contracts with the agencies that run them. Based on our review of
that information, we concluded that Amtrak did not fully “explain the manner and
extent to which any suspension of Amtrak operations would affect commuter rail
operations,” and we requested additional information. We also met with several
high ranking Amtrak officials on August 5, 2003, to clarify our request. We asked
Amtrak to provide:

    • An analysis of the overhead expenses that would be incurred to operate the
      Northeast Corridor (NEC) and commuter services if all other services were
      shut down;
    • An analysis of the capital funds required to maintain the NEC and
      commuter services for periods of 3 months and 1 year if all other services
      were shut down; and
    • A report incorporating these analyses into a detailed assessment of the
      operating and funding requirements for providing commuter services if all
      other services but the NEC were shut down;

In response, Amtrak simply provided us a number of documents from which some,
but not all, of the required data could be obtained. Amtrak neither performed the
required analyses nor developed the coherent response contemplated by loan
condition 8.

The information required by this condition is necessary to provide Congress with
an accurate calculation of the dollars necessary to keep commuter services
operating regardless of Amtrak’s financial health. Congress included language in
Amtrak’s fiscal year (FY) 2003 and 2004 appropriations requiring that sufficient
funds be reserved to satisfy the contractual obligations of Amtrak for commuter
operations. However, without the accurate information that only Amtrak can
provide, it is not known whether the reserved funds ($60 million in FY 2004)
would be sufficient if they were needed.

Amtrak depends on Federal taxpayers for its existence, but in this instance Amtrak
management is not meeting its obligation to provide those taxpayers with accurate,
mandated information. Furthermore, Amtrak’s RRIF loan agreement did not
include any adverse consequence for noncompliance with loan condition 8. The
Government’s ability to employ adverse consequences, such as a reduction in
appropriations, for noncompliance with Federal requirements is severely impaired

Control No. 2003-049
                                                                                    3

because such actions would trigger the very insolvency of Amtrak that the
Government is endeavoring to avoid. Situations such as this are among the
reasons underlying proposals to give the states greater control of intercity
passenger rail services.

If I can answer any questions or be of further assistance, please feel free to contact
me at (202) 366-1959, or Mark R. Dayton, Assistant Inspector General for
Competition and Economic Analysis, at (202) 366-9970.


                                          #




Control No. 2003-049
